No. 20-659

 

In THE

Supreme Court of the United States

 

LARRY THOMPSON,
Petitioner,
Vv.
POLICE OFFICER PAGIEL CLARK, SHIELD #28472,
Respondent.

 

CERTIFICATE OF SERVICE

 

I, Brian R. Frazelle, do hereby declare that on June 11, 2021, as required by
Supreme Court Rule 29.5, I have served by first-class mail, postage pre-paid, the Brief
of Constitutional Accountability Center as Amicus Curiae in Support of Petitioner on

counsel for each party to the above proceedings as follows:

Amir H. Ali Richard Paul Dearing

Roderick & Solange MacArthur New York City Law Department
Justice Center 100 Church St.

501 H St. N.E., Ste. 275 New York, NY 10007

Washington, DC 20002 rdearing@law.nyc.gov

Amir.ali@macarthurjustice.org (212) 356-2500

(202) 869-3434

Counsel of Record for Respondent
Counsel of Record for Petitioner Police Officer Pagiel Clark
Larry Thompson

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 11, 2021.

Brian R. Frazelle
Counsel for Amicus Curiae
